                                               VETERANS’ EMPLOYMENT 

Office of Inspector General—Office of Audit
   AND TRAINING SERVICE





                                               VETS NEEDS TO STRENGTHEN MANAGEMENT
                                               CONTROLS OVER THE TRANSITION ASSISTANCE
                                               PROGRAM




                                                                         Date: September 30, 2010
                                                                Report Number:   06-10-002-02-001
U.S. Department of Labor                                September 2010
Office of Inspector General
Office of Audit                                         VETS NEEDS TO STRENGTHEN
                                                        MANAGEMENT CONTROLS OVER THE
                                                        TRANSITION ASSISTANCE PROGRAM
BRIEFLY…
Highlights of Report Number 06-10-002-02-001, to        WHAT OIG FOUND
the Assistant Secretary for Veterans’ Employment        The OIG found VETS did not have effective
and Training Service.                                   management controls to ensure TAP participants
                                                        received the employment assistance needed to
                                                        obtain meaningful employment. VETS could not
WHY READ THE REPORT                                     substantiate the 124,700 participants that it
The Office of Inspector General (OIG) conducted a       reported as having attended TAP workshops with
performance audit of the Veterans’ Employment           participant attendance documents and monitoring
and Training Service’s (VETS) management                of 117 of 247 (47 percent) domestic and overseas
controls over the Transition Assistance Program         TAP sites. We found a lack of consistent
(TAP). TAP was established in 1990 to provide           evaluation criteria and resolution tracking in VETS
employment assistance — such as resume                  monitoring.
preparation and interviewing techniques — to
separating and retiring military personnel and their    VETS also did not use measurable performance
spouses during their period of transition from          goals and outcomes to evaluate program
military service to the civilian workplace. Title 10,   effectiveness and lacked adequate controls over
United States Code, Section 1144, requires the          contracting for TAP workshop services. These
Department of Labor (DOL) to enter into a               deficiencies resulted in undermining VETS’ ability
Memorandum of Understanding with partner                to ensure it was providing a high-quality program,
agencies to provide TAP workshops.                      as required, to meet the assistance needed to
                                                        ensure veterans succeed in obtaining meaningful
                                                        employment, and may impact critical program
WHY OIG CONDUCTED THE AUDIT                             decisions by Congress, VETS, and other
Due to the severe economic recession, the               stakeholders. In addition, deficiencies resulted in
unemployment rate of separating and retiring            $2.3 million in unsupported and other questioned
military personnel rose from 9.8 percent in 2009 to     costs; and $713,000 that may have been put to
11.8 percent in 2010. The rate of unemployment          better use.
among returning soldiers aged 18-24 is
approximately 22 percent.                               WHAT OIG RECOMMENDED
                                                        We made six recommendations to the Assistant
We conducted an audit of VETS TAP to answer             Secretary for Veterans’ Employment and Training.
the question: Did VETS’ TAP have effective              In summary, we recommended VETS develop and
management controls to ensure it provided               implement procedures to ensure accurate
employment assistance to veterans?                      participant attendance, an effective monitoring
                                                        process, measurement and reporting of outcome
                                                        goals and appropriate controls over contract
READ THE FULL REPORT                                    activities and administration. We also
To view the report, including the scope,                recommended recovery of unsupported and
methodology, and full agency response go to:            questioned contract costs.
http://www.oig.dol.gov/public/reports/oa/2010/06-10-
002-02-001.pdf                                          The Assistant Secretary of Veterans’ Employment
                                                        and Training agreed VETS controls need to be
                                                        strengthened and pointed to current and planned
                                                        improvements.






         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                        Veterans Transition Assistance Program
                                  Report No. 06-10-002-02-001
                                                      U. S. Department of Labor – Office of Inspector General



Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1


Results In Brief .............................................................................................................. 2


Objective — Did VETS TAP have effective management controls to ensure it 

             provided employment assistance to veterans? ................................. 3

         VETS lack of effective management controls undermines its ability to 

         ensure DOL meets its responsibility under TAP; and resulted in $2.4 

         million in questioned costs, funds that may have been put to better use, 

         and may impact critical program decisions by Congress, VETS, and other 

         stakeholders. ....................................................................................................... 3

         Finding 1 — VETS lack effective management controls for the TAP.................... 3

         Finding 2 — VETS lacked adequate controls over the contract for TAP 

                     workshops. ...................................................................................... 8


Recommendations ...................................................................................................... 11


Appendices
         Appendix A Background ..................................................................................... 15

         Appendix B Objective, Scope, Methodology and Criteria ................................... 17

         Appendix C Acronyms and Abbreviations .......................................................... 21

         Appendix D VETS Response to Draft Report ..................................................... 23

         Appendix E Acknowledgements ......................................................................... 25





                                                                          Veterans Transition Assistance Program
                                                                                    Report No. 06-10-002-02-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                        Veterans Transition Assistance Program
                                  Report No. 06-10-002-02-001
                                      U. S. Department of Labor – Office of Inspector General


U.S. Department of Labor                  Office of Inspector General
                                          Washington, D.C. 20210




September 30, 2010

                         Assistant Inspector General’s Report

Raymond M. Jefferson 

Assistant Secretary for Veterans’ 

 Employment and Training
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210

Due to the severe economic recession, the unemployment rate of military personnel
separating and retiring from conflicts such as Iraq and Afghanistan has risen from 9.8
percent in 2009 to 11.8 percent in 2010. The rate of unemployment among returning
soldiers aged 18-24 is approximately 22 percent. The Transition Assistance Program
(TAP) was established in 1990 to meet the needs of separating and retiring military
personnel and their spouses during their period of transition from military service to the
civilian workplace.

Title 10, United States Code (10 USC), Section 1144, requires the Department of Labor
(DOL) to offer TAP workshops that provide employment assistance in required areas
such as job search, resume preparation, and interviewing techniques. In September
2006, DOL entered into a 2-year Memorandum of Understanding (MOU) to provide
assistance. Although the MOU is expired, DOL continues to follow the guidance to
report on participant attendance and monitor TAP workshops and facilitators. For Fiscal
Year (FY) 2009, DOL reported delivery of TAP services to 124,700 participants with
reported funding of $7.2 million. Veterans’ Employment and Training Service (VETS)
indicated these participants attended 4,426 workshops at 247 sites.

We conducted an audit of VETS TAP to answer the following question:

Did VETS’ TAP have effective management controls to ensure it provided employment
assistance to veterans?

Our audit focused on TAP activities for FY 2009, the most recent period available for
audit. We reviewed laws and regulations, and the most current policies and procedures;
and interviewed contractors and VETS personnel. Initially, we obtained a judgmental
sample of 11 states for an analysis of VETS monitoring of TAP sites and based on
weaknesses identified we expanded our analysis to include a statistical sample of 10
states. Our statistical sample of 10 states was used in our analysis of VETS’ reporting of
participant attendance. Due to weaknesses in contract monitoring, we expanded our
analysis to include VETS oversight of the TAP contractor from FYs 2007 to 2009.

                                                         Veterans Transition Assistance Program
                                                                   Report No. 06-10-002-02-001
                                              1
                                     U. S. Department of Labor – Office of Inspector General



We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.


RESULTS IN BRIEF

VETS did not have effective management controls to ensure TAP participants received
employment assistance needed — such as resume preparation and interviewing
techniques — to obtain meaningful employment. VETS could not substantiate the
124,700 participants that it reported as having attended TAP workshops with participant
attendance documents and monitoring of 117 TAP sites. VETS’ did not consistently use
evaluation criteria in its monitoring of TAP workshops and did not track resolution of
issues identified. In addition, VETS did not use measurable performance goals and
outcomes to evaluate program effectiveness. We attribute these deficiencies to the lack
of VETS policies and procedures to ensure proper controls were in place for reporting
TAP participants, monitoring TAP sites, and retaining participant information in order to
measure program effectiveness. These deficiencies resulted in undermining VETS’
ability to ensure it is providing a high-quality program, as required, to meet the
assistance needed to ensure veterans succeed in obtaining meaningful employment,
and may impact critical program decisions by Congress, VETS, and other stakeholders.

VETS also lacked adequate controls over the contract for TAP workshops conducted
from FYs 2007 to 2009. Contract services were not properly authorized by the
Contracting Officer (CO) as required by the Federal Acquisition Regulation (FAR), and
contract supporting documentation was not maintained for FY 2007 contract payments.
VETS cost comparisons of grant versus contract facilitators did not ensure the best
value to the government using TAP funds. We attribute these deficiencies to VETS’ lack
of controls in processing contract changes, retention of records and methods for
performing contract cost comparisons. The breakdown in these controls resulted in
$2.3 million in unsupported and other questioned contract costs and $713,000 that may
have been put to better use.

In summary, we recommend the Assistant Secretary for Veterans’ Employment and
Training to (1) develop and implement procedures to report participant attendance, a
monitoring process, and controls for contract activities and administration; (2) ensure
VETS personnel adequately monitor TAP workshops; (3) retain participant information
needed to measure and report outcome goals; (4) recover unsupported and questioned
contract costs; (5) revise methods for contractor cost justification cost comparisons; and
(6) establish a new MOU with its partner agencies.



                                                    Veterans Transition Assistance Program
                                                              Report No. 06-10-002-02-001
                                            2
                                      U. S. Department of Labor – Office of Inspector General


In response to our draft report, the Assistant Secretary of Veterans’ Employment and
Training agreed that program controls need to be strengthened and pointed to current
and planned improvements. Specifically, the primary reporting system, VOPAR, is now
back in operation for reporting of TAP participant numbers and should improve the
verification and identification of errors in reporting program data collection. In addition,
he stated VETS intends to redesign the TAP Employment Workshop that will produce a
significantly improved workshop experience and will incorporate an evaluation and
customer satisfaction feedback loop, which will be a significant improvement over the
current practice of paper participant critique forms.

The Assistant Secretary’s entire response is contained in Appendix D.


RESULTS AND FINDINGS

Objective — Did VETS TAP have effective management controls to ensure it
            provided employment assistance to veterans?

       VETS lack of effective management controls undermines its ability to ensure
       DOL meets its responsibility under TAP; and resulted in $2.4 million in
       questioned costs and funds that may have been put to better use, and may
       impact critical program decisions by Congress, VETS, and other stakeholders.

Finding 1 — VETS lack effective management controls for the TAP

VETS did not have effective management controls to ensure TAP participants received
the employment assistance needed — such as resume preparation and interviewing
techniques — to obtain meaningful employment. VETS’ controls did not enable the
agency to substantiate its reporting, monitoring, and oversight of contract activities. In
addition, VETS did not use measurable performance goals and outcomes to evaluate
program effectiveness. The Government Accountability Office (GAO) Standards for
Internal Controls in the Federal Government, and Office of Management and Budget
(OMB) Circular A-123 (A-123) provide standards for the overall framework for
establishing and maintaining internal controls.

VETS could not substantiate DOL reported program participation.

The DOL FY 2009 Performance and Accountability Report reported that 124,700
participants attended VETS TAP workshops. We found that TAP participant information
VETS provided to support program attendance was incomplete and could not be relied
on. Based on our analysis of VETS process for reporting TAP attendance, VETS did not
require attendance records to be retained to support attendance but rather relied on
spreadsheets obtained from the state and regional levels. VETS National and Regional
Office required the VETS State Directors to only provide supporting spreadsheets for
reported TAP attendance. In our review of 8 of the 10 states VETS was unable to
provide the supporting spreadsheets for reported numbers. Additionally, unexplained
                                                     Veterans Transition Assistance Program
                                                               Report No. 06-10-002-02-001
                                             3
                                      U. S. Department of Labor – Office of Inspector General


variances existed between state and regional totals reported in spreadsheets for the 2
states that VETS did provide. For example, VETS provided only participant attendance
data for the second and fourth quarters of FY 2009 for the Chicago and Philadelphia
regional offices.

Finally, our analysis of the VETS National Office TAP attendance data spreadsheet
found that VETS did not provide the breakdown of participant information as required by
the MOU. The MOU required VETS to categorize participants in their reporting, such as
the total number of participants for each class; number of retirees, separating military
personnel, number of spouses for each class; gender and service branch. VETS did not
report participants by gender for the reported TAP workshops.

According to OMB A-123, Management’s Responsibility for Internal Control,
management should have a clear, organized strategy with well-defined documentation
processes that contain an audit trail, verifiable results, and specify document retention
periods so that someone not connected with the procedures can understand the
assessment process.

We attribute the reason for these deficiencies to VETS’ policies and procedures not
addressing methods for reporting TAP participants; requirements for retaining
participant attendance records; directions on when TAP participant attendance should
be recorded, and how to record attendance for National Guard and Reserve members
and veterans attending TAP who had separated within the previous 6 months. As a
result, VETS’ reporting on TAP attendance may be inaccurate because personnel
responsible for recording participant attendance did not receive needed directions, and
VETS did not verify recorded participant attendance to ensure completeness and
accuracy. The lack of reliable reporting of TAP participation undermines VETS’ ability to
ensure DOL has met its responsibility under the program and may impact critical
program decisions by Congress, VETS, and other stakeholders.

VETS did not effectively monitor TAP workshops conducted.

VETS did not adequately perform required annual monitoring to ensure the delivery of
quality TAP workshops and program improvements. 10 USC, Section 1144, requires
DOL VETS to provide workshop curriculum concerning employment and training
assistance, such as developing a job resume, job search techniques, and job interview
techniques. Of the 247 TAP sites, VETS did not have documentation to substantiate
that it had monitored 117 sites, or 47 percent. Specifically, VETS did not monitor any of
the 48 overseas TAP sites, but rather, relied on the contractor to self monitor its
performance. By doing so, VETS did not ensure the segregation of responsibilities
needed to provide it assurance that the overseas TAP workshops were meeting
program requirements. In addition, VETS could not substantiate any monitoring efforts
for 69 (35 percent) of the 199 domestic TAP sites. See Chart below for the number of
monitoring reports provided and not provided.



                                                     Veterans Transition Assistance Program
                                                               Report No. 06-10-002-02-001
                                             4
                                     U. S. Department of Labor – Office of Inspector General




Of the monitoring reports that were available for our review, the information they
contained was inconsistent. This occurred because VETS did not require the monitor to
use the standard monitoring report, review documentation, and observe the facilitator
and the workshop curriculum; follow up on resolution of issues; and have the region
conduct accountability reviews.

Specifically, the most current standard monitoring report was not updated to include the
new required program curriculum, resume writing, and job interviewing exercises
mandated by 10 USC, Section 1144. In addition, the standard monitoring report did not
accomplish all the goals of a site visit by not determining if there were adequate
materials, supplies, and equipment available and if any involved staff had concerns or
complaints about the program.

Furthermore, for the 130 TAP sites that provided monitoring reports we analyzed 67 non
statically selected sites and found 48 monitoring reports did not use the standard
monitoring report. Of these 48 monitoring reports, 40 did not consistently use the
evaluation criteria to ensure if all of the goals of a TAP site were accomplished. For
example, 19 monitoring reports did not evaluate the program curriculum, such as job
resume and interviewing techniques, to ensure it was being taught. See Table 1 below
for the elements of the workshops that were not evaluated.




                                                    Veterans Transition Assistance Program
                                                              Report No. 06-10-002-02-001
                                            5
                                                   U. S. Department of Labor – Office of Inspector General


      Table 1: Elements of the Workshops Not Evaluated
      Elements                                                                         Monitoring Reports
      Program Curriculum                                                                               19
      Effectiveness of Disabled Transition Assistance Program                                          27
      Promotion of the Program                                                                         26
      Parties Upholding the MOU                                                                        13
      Facilities                                                                                        1
      Total Elements                                                                                  86 1

However, 11 monitors identified issues in their monitoring reports regarding the
facilitators not teaching the required program curriculum. To that end, VETS did not cite
follow up or resolution of the matter. See Table 2 for the monitoring deficiencies
identified without evidence of resolution.

        Table 2: Monitoring Deficiencies Without Evidence of Resolution
        Deficiencies Identified             Monitoring Reports     Resolution
        Resume Not Developed                                  4             0
        Manual Not Followed                                   6             0
        Job Search Techniques Not Covered                     2             0
        Job Interviewing Techniques Not                       1             0
        Covered
        SBA Not Covered                                       1             0
                                                               2
        Total Deficiencies                                  14              0

Consequently, without proper resolution, the facilitators may continue to “not teach” the
required program curriculum and participants may not be receiving the assistance
needed to obtain meaningful employment.

VETS management attributed these program oversight deficiencies to the lack of
adequate management controls to track, retain, and analyze monitoring documentation.
In addition, VETS officials stated its regional personnel had not provided the oversight
needed of the VETS State personnel who were assigned to conduct the local-level
monitoring. Finally, VETS management stated they received minimal funding for TAP in
comparison to other VETS programs and therefore, did not place as much emphasis on
TAP. As a result, VETS cannot not ensure it is providing a high-quality program, as
required, and participants are receiving the assistance needed in obtaining meaningful
employment.




1
  Of the 40 monitoring reports that did not consistently use the evaluation criteria, 31 reports did not evaluate more 

than one of the goals of a TAP site visit. 

2
  There was one monitoring report at Vance Air Force Base, Oklahoma that identified 4 issues.

                                                                       Veterans Transition Assistance Program
                                                                                 Report No. 06-10-002-02-001
                                                            6
                                     U. S. Department of Labor – Office of Inspector General


VETS did not review and consider participant feedback to identify program
weaknesses.

VETS did not have documentation to substantiate that it had obtained participant
feedback forms for 55 of 95 TAP sites. Of the remaining 40 sites, we obtained and
analyzed 903 participant feedback forms and found participants identified 576 concerns
for 38 of the 40 TAP sites. In summary, 58 percent of the participants cited the required
program curriculum was not taught, problems with facilitators presentations, or concerns
over areas of the curriculum, including needing more time for resumes and job
interviewing. The remaining 42 percent of the participants cited problems with their local
workshops, such as the lack of updated handouts and available computers; and the
organization of the workshop, such as the order of presentation of the curriculum being
taught.

VETS policy did not require a trend analysis of participant feedback forms. However, the
MOU requires the participant feedback forms to be used to improve the program at the
local level and to elevate participants' issues of broad scope to the national level. In
addition, VETS officials stated they tried to conduct a program analysis for the
participant feedback forms at the national level and found it was too cumbersome.
Without considering participant feedback, VETS lost an opportunity for addressing
program weaknesses and making program improvements.

VETS did not use measurable performance goals and outcomes to evaluate
program effectiveness.

VETS did not use performance goals and outcomes, as required by GPRA, to evaluate
program effectiveness to determine whether participants applied the skills to obtain
meaningful employment. Instead, VETS referred to Department of Defense’s (DOD)
goal of providing TAP workshop to 85 percent of separating military personnel, and
reported only the total number of TAP workshops conducted and participants served in
its annual report to Congress. VETS management stated they believe performance
measures would enhance the program; however, they disagreed that they were
required to report outcomes because they contended that they did not have a specific
authorizing statute and a separate program budget. Furthermore, VETS did not retain
the participant information needed to measure and report outcome goals or obtain a
waiver from OMB on the GPRA requirements.

According to an OMB representative, VETS TAP is included in the Jobs for Veterans
State Grant (JVSG) budget and is held to JVSG outcome goals. JVSG outcome goals
include the number of veterans that entered employment, the enter employment rate
and employment retention rate. VETS’ approach to focus on outputs rather than
outcomes does not ensure the effectiveness of TAP providing the employment
assistance needed.




                                                    Veterans Transition Assistance Program
                                                              Report No. 06-10-002-02-001
                                            7
                                     U. S. Department of Labor – Office of Inspector General


Finding 2 — VETS lacked adequate controls over the contract for TAP
            workshops.

VETS lacked adequate controls over the contract for TAP workshops conducted from
2007 through 2009 in accordance with FAR resulting in unsupported and other
questioned contract costs and funds that may have been put to better use. Specifically,
the CO did not review and approve changes to the scope of work for issued task orders
and approved task orders for contractor services in Italy, which was outside the scope
of approved services in the existing contract. In addition, VETS did not maintain
supporting documentation as required by the Department of Labor Manual Series
(DLMS) for payment of contractor TAP services performed in FY 2007. These
deficiencies existed due to lack of VETS controls over contract activities and
administration, such as the required communication between VETS and the CO and
record retention requirements. The breakdown in these controls resulted in $2.3 million
in unsupported and other questioned contract costs and $713,000 that may have been
put to better use.

VETS could not provide contract payment documentation for TAP service
resulting in unsupported questioned contract costs.

VETS was unable to provide invoices and related documentation for contract payments
totaling $1.6 million made in FY 2007. VETS lacked policies and procedures for the
retention of supporting documentation. Personnel responsible for maintaining contract
payment documentation told us the supporting documentation for the payments was not
available and may have been lost or misplaced.

DLMS, Chapter 6, Section 926, Disbursements, requires documents supporting
disbursement transactions, including purchase orders, contracts, receiving reports,
invoices, bills, statements of accounts, etc., may be in hard copy, electronic, or
machine-readable source records and must show sufficient information to adequately
account for the disbursements. The documentation should link all supporting records,
enable audit of the transactions, and ensure settlement with the Certifying or Disbursing
Officers.

The Contracting Officer (CO) Did Not Review and Approve Changes to the Scope of
Work for Issued Task Orders as Required by the FAR Resulting in Other Questioned
Contract Costs.

The Contracting Officer’s Technical Representative (COTR) exceeded his authority in
authorizing and approving the contractor invoiced 99, 3-day domestic and 20, 2-day
domestic and TAP overseas workshops totaling $221,831. The TAP COTR did not
obtain approval from the CO of the needed changes to the TAP workshop delivery.
Accordingly, the CO did not approve these TAP workshops and their related contractor
invoices; however, VETS approved payment to the contractor. These unapproved
changes to the scope of work were due to the COTR not following the COTR Letter of
Appointment in immediately advising the CO of the proposed change since it affected
                                                    Veterans Transition Assistance Program
                                                              Report No. 06-10-002-02-001
                                            8
                                       U. S. Department of Labor – Office of Inspector General


the cost and delivery schedule. The TAP COTR was aware of this requirement as he
was required to read and sign the COTR Letter of Appointment and similar breakdowns
in controls occurred in FY 2007 involving COTR unauthorized approval of contract
services.

The COTR Letter of Appointment states:

        the COTR "cannot authorize the contractor to stop work, and … delete,
       change, waive, or negotiate any of the technical requirements or other
       terms and conditions of the contract.” In addition, “should a change …
       must be put in writing by the contractor to the contracting officer for action;
       and you (the COTR) should immediately advise the contracting officer …
       of the proposed change since it may affect the contract price, cost, or
       delivery/performance schedule.”

VETS stated the CO did not provide sufficient guidance on the handling of the TAP
contract in providing TAP Employment Workshops and believed the changes were in
line with the contract and did not require CO approval. However, similar contract issues
in FY 2007 occurred that resulted in $650,000 requiring ratification for approval.

The CO Approved Task Orders for Contractor Services Outside of The Scope of the
Contract Resulting in Questioned Costs.

The CO approved task orders for the contractor to provide TAP workshops in Italy,
which was outside the scope of approved services in the TAP contract. VETS did not
ensure Italy was identified in the contract before services were approved and paid. The
contract defines the locations and cost of all TAP sites the contractor is to facilitate. The
contract states that the contractor was required to facilitate 34 TAP sites domestically
and 48 TAP sites overseas. The contract identified countries outside of the U.S. that
included Germany, Japan, United Kingdom, Guam, Korea, and Benelux, and refers to
anticipated expansions to Turkey, Bahrain, Iceland, and Portugal.

Italy was not identified as a country authorized for TAP workshops services under the
contract; yet, VETS approved and paid for TAP workshops in Italy in FYs 2008 and
2009. According to FAR, Section 43.201, modifications to the contract are required.
Furthermore, VETS paid the TAP contractor twice the overseas approved amount for
TAP workshops at the Italy sites. To ensure services at a reasonable cost, VETS should
have competed for these services as required by the FAR, Section 8.405. We attribute
these deficiencies to VETS management not following internal policies requiring review
and approval of needed services. As a result, VETS paid unauthorized services of
$524,508 for FYs 2008 and 2009.




                                                      Veterans Transition Assistance Program
                                                                Report No. 06-10-002-02-001
                                              9
                                     U. S. Department of Labor – Office of Inspector General


VETS Did Not Conduct Required Oversight of Contract Services and Timely Processing
of Contract Payments.

The TAP COTR did not effectively monitor the TAP contractor performance as required.
VETS COTR did not visit contract locations, review contractor activities or provide
written reports of contractor performance to the CO. As a result of the absence of
monitoring and oversight of the contractor, VETS is unaware of whether the contractor
met contract requirements in providing quality facilitation at TAP workshops at the best
price.

According to Title 48, Code of Federal Regulations, Chapter 2901.603-71, and the
COTR Letter of Appointment, the COTR is required to make periodic visits to the
contractor's location to (1) evaluate the contractor's performance; (2) evaluate changes
in the technical performance affecting personnel, the schedule, deliverables, and price
or costs; … and (4) ensure that contractor employees being charged to the contract are
actually performing the work under the contract. In addition, the COTR was required to
complete a trip report documenting the above activities and provide this report to the
CO. In the absence of contractor oversight, VETS may be paying more than necessary
for contract services without the ability to determine contractor performance.

In addition, VETS did not properly process request for changes in contract services.
Changes are required by the contract Statement of Work to be submitted to the State
Director and approved by the COTR and contractor. Changes requested are required to
be submitted on program approved request forms within 2 weeks of the scheduled TAP
workshop. Of 198 changes in contract services occurring in FY 2009, we determined
that 54 changes were not properly documented and appropriately approved; and 18
changes were not submitted timely. VETS did not have proper review and approval
controls in place to ensure request for changes were properly authorized. The request
for change of service is the support for contract modification and should appropriately
be documented and approved.

In addition, VETS did not process invoices timely to avoid interest charges. VETS
complied with the Prompt Payment Act, which requires Federal agencies to pay interest
on late payments. VETS paid interest payments to the TAP contractor totaling $5,345
for late payments made in FY 2009. It was necessary for VETS to pay interest on late
contract payments due to weak internal controls over contract payment processing.
VETS did not have policies and procedures in place to provide direction to personnel
with stated consequences for failure to comply with policies. This resulted in $5,345 of
funds not put to best use.

VETS’ basis for cost comparison used in obtaining TAP services did not ensure
best value to the government.

VETS funds workshop facilitators using set-aside funding under JVSG, which is four
percent of the annual funding for Disabled Veterans’ Outreach Program Specialist
(DVOP), Local Veterans’ Employment Representative (LVER) and contract facilitators.
                                                    Veterans Transition Assistance Program
                                                              Report No. 06-10-002-02-001
                                           10
                                      U. S. Department of Labor – Office of Inspector General


VETS award a contract to facilitate domestic and overseas TAP workshops. In
supporting contract decisions VETS provided cost comparisons of costs related to
JVSG facilitators versus the use of contractors. VETS method was flawed in that it did
not use the same basis in comparing JVSG and contract facilitator costs. Specifically,
VETS used a lesser-than-actual contractor cost and a higher-than-actual JVSG
facilitator cost in its comparison. VETS officials explained that they considered the time
JVSG personnel facilitated a TAP workshop was time they could have used them in
their DVOP and LVER positions under JVSG. Therefore, an additional cost was applied
to represent “the cost of lost services” or the lost value while the DVOP/LVER was
conducting TAP workshops. However, as DVOP/LVER positions are funded separately
through the State grant program as is TAP facilitator cost, adding an additional cost to
actual JVSG facilitator cost for purpose of cost comparison is not valid.

In determining whether VETS received best value under the contract we identified the
total amount of actual contractor billings of $1,561,579 for 839 related TAP workshops
contracted at an average cost of $1,862 per workshop. In our calculations for JVSG
facilitator cost we applied the total annual JVSG cost of $3,073,000 for 3,038 related
TAP workshops at an average cost of $1,011 per workshop. The difference between the
average contracted cost of $1,862 and JVSG cost of $1,011 was $851. We estimate
that for the 839 contract workshops VETS paid almost $713,000 — 10 percent of VETS’
annual funding for TAP workshop services — in excess of what it would have paid had
the services been provided through the JVSG. This resulted in not ensuring VETS
obtained services at the best value to the government.


Recommendations

We recommend that the Assistant Secretary for Veterans’ Employment and Training
take action to:

1. Develop and implement procedures to report and document participant attendance,
   a monitoring process, and controls for contract activities and administration.

2. Ensure VETS personnel adequately monitor TAP workshops.

3. Retain participant information needed to measure and report outcome goals.

4. Establish a new MOU with its partner agencies.

5. Revise methods for contractor cost justification cost comparisons.

6. Recover unsupported and questioned contract costs.




                                                     Veterans Transition Assistance Program
                                                               Report No. 06-10-002-02-001
                                            11
                                   U. S. Department of Labor – Office of Inspector General


We appreciate the cooperation and courtesies that VETS’ personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                  Veterans Transition Assistance Program
                                                            Report No. 06-10-002-02-001
                                         12
              U. S. Department of Labor – Office of Inspector General




Appendices





                             Veterans Transition Assistance Program
                                       Report No. 06-10-002-02-001
                    13
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                        Veterans Transition Assistance Program
                                  Report No. 06-10-002-02-001
               14
                                       U. S. Department of Labor – Office of Inspector General


                                                                                 Appendix A
Background

Due to the severe economic recession, the unemployment rate of military personnel
separating and retiring from conflicts such as Iraq and Afghanistan has risen from 9.8
percent in 2009 to 11.8 percent in 2010. The rate of unemployment among returning
soldiers aged 18-24 is approximately 22 percent. TAP was established in 1990 to meet
the needs of separating and retiring military personnel and their spouses during their
period of transition from military service to the civilian workplace with less difficulty and
overall cost to the government.

10 USC, Section 1144, requires DOL, DOD, Department of Veterans Affairs (VA), and
Department of Homeland Security (DHS) to enter into an agreement to establish and
maintain TAP workshops. DOL is to provide employment and training assistance in
required areas such as job search, resume preparation, and interviewing techniques. In
September 2006, DOL and partner agencies entered into a 2-year MOU agreement that
defined agency roles and responsibilities for TAP. VETS is responsible for ensuring
DOL meets its responsibilities under 10 USC and the MOU. Although the MOU is
expired, VETS continues to apply the MOU roles and responsibilities throughout their
operations.

The MOU required VETS to report on participant attendance and monitor TAP
workshops and facilitators. VETS is responsible for reporting participant attendance and
providing this information to DOD, VA, and DHS quarterly. VETS is required to
categorize participants in their reporting, such as the total number of participants for
each class; number of retirees, separating military personnel, number of spouses for
each class; gender and service branch. Also, VETS is responsible to monitor the TAP
workshop delivery and the effectiveness of the workshop facilitator to maintain a high-
quality program. VETS are to perform annual site visits and conduct an evaluation of
participant feedback to ensure quality of workshops.

VETS TAP workshops are facilitated by JVSG personnel DVOP, and the LVER, and the
TAP contractor personnel. The TAP workshops typically cover 2-1/2 days of instruction
delivered in a classroom setting to veterans and spouses who are transitioning from
military service to civilian life within the next year, 2 years in the case of retirees.

The number of TAP workshops conducted is based on projections made by each of the
Armed Services and the DHS. In DOL’s FY 2009 Congressional Budget Justification,
VETS estimated TAP would serve approximately 185,000 departing service members.
Subsequently, DOL PAR disclosed delivery of TAP services to 124,700 participants with
funding of $7.2 million for FY 2009. VETS indicated these participants attended 4,426
workshops at 247 sites.




                                                      Veterans Transition Assistance Program
                                                                Report No. 06-10-002-02-001
                                             15
     U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                    Veterans Transition Assistance Program
                              Report No. 06-10-002-02-001
           16
                                     U. S. Department of Labor – Office of Inspector General


                                                                              Appendix B
Objective, Scope, Methodology and Criteria


OBJECTIVE

Did VETS’ TAP have effective management controls to ensure it provided employment
assistance to veterans?

SCOPE AND METHODOLOGY

Our audit period focused on TAP monitoring and reporting for FY 2009, the most recent
FY available for audit. We expanded our scope to include TAP contract activities for
FYs 2007 through 2009 based on weaknesses identified in VETS monitoring.

A performance audit includes an understanding of internal controls considered
significant to the audit objective and testing compliance with significant laws,
regulations, and other compliance requirements. In order to plan our performance audit,
we considered whether internal controls significant to the audit were properly designed
and placed in operation. We confirmed our understanding of these controls and
procedures through interviews, and analysis. Auditors reviewed relevant laws and
regulations, VETS policies and procedures, interviewed VETS TAP contractors, Coast
Guard representatives, the TAP CO, and VETS personnel at the state, regional and
national office level to gain an understanding of the program requirements, policies over
reporting, monitoring of TAP sites, and contract oversight.

In performing our audit work we visited VETS National Office in Washington, D.C.;
Dallas Regional Office; state offices located in Denver, Colo.; and Austin, Texas; and
visited the TAP contractor in Virginia. We documented VETS process for reporting and
monitoring.

For monitoring, we requested VETS provide monitoring documentation to determine
whether VETS monitoring for FY 2009 was complete. We tracked monitoring
documentation VETS provided to determine whether VETS was able to demonstrate
their monitoring of TAP sites.

Initially, we obtained a judgmental sample of all 11 states in the Dallas region for an
analysis of VETS monitoring of TAP sites. These states were: Oklahoma, Texas,
Louisiana, Arkansas, Wyoming, Utah, Montana, New Mexico, Colorado, and South and
North Dakota.

For further analysis we obtained a statistical sample of 10 states and 5 regions, and
requested VETS provide information they relied on for their reporting of TAP
participants, and documentation supporting VETS monitoring of TAP sites for FY 2009
for locations in our statistical sample. Our statistical sample states were: California,
Colorado, Delaware, Florida, Hawaii, Louisiana, Missouri, Oregon, Texas, and Virginia.
                                                    Veterans Transition Assistance Program
                                                              Report No. 06-10-002-02-001
                                           17
                                      U. S. Department of Labor – Office of Inspector General


Our statistical sampling plan is a stratified random sample with a 90 percent confidence
level. The statistical sample was extracted from a universe of VETS domestic TAP sites.
VETS provided data identifying 3,877 TAP Workshops at 222 TAP sites. Upon
examination of the data provided by VETS, we found that not all sites were used for
TAP workshops in FY 2009. Therefore, we adjusted our universe to reflect the sites
used to conduct TAP workshops in FY 2009. Our adjustment to the universe resulted in
199 domestic TAP sites in FY 2009. The universe for TAP overseas included 48 TAP
sites representing 568 workshops in FY 2009.

TAP participant attendance information VETS relied on for their reporting was provided
for our analysis, which included information that was incomplete and periods outside of
our audit period. VETS process for reporting TAP attendance is based on spreadsheets
from the state and Regional level into a National Office spreadsheet. VETS National
Office could not provide the supporting spreadsheets to substantiate the reported TAP
attendance of 8 of the 10 sample states.

VETS provided some monitoring information for 8 of 10 states in our statistical sample.
Delaware and Oregon did not provide any monitoring documentation and only Missouri,
Louisiana, Colorado, and Texas provided all monitoring reports requested. Out of 10
states, Texas was the only state to provide all participant feedback forms for statistically
sampled states. We obtained a replacement statistical sample; however, VETS did not
have information for the replacement states either. Since we did not receive monitoring
documentation to substantiate VETS monitoring we were not able to project our audit
results. Yet, monitoring documentation provided was sufficient for auditors to answer
the audit objective for VETS monitoring of TAP sites. Our reporting on VETS monitoring
of TAP sites refers to locations in our judgmental sample and our statistical sample. In
all, our analysis included 95 TAP sites in 18 states.

Our analysis of VETS monitoring of TAP sites included a comparison of VETS
monitoring reports to VETS internal policies and practices, such as their TAP
Operations Manual, VETS roles and responsibilities stated in the MOU, and program
requirements identified in 10 USC. We used VETS participant feedback forms to
complete a trend analysis by documenting the participants rating for each question
VETS asked on the participant feedback forms. Finally, we compared participants’
comments on the participant feedback forms to what VETS monitors documented in the
monitoring reports. We repeated this methodology in our substantive testing of VETS
monitoring using our statistical sample of 10 states.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.



                                                     Veterans Transition Assistance Program
                                                               Report No. 06-10-002-02-001
                                             18
                                  U. S. Department of Labor – Office of Inspector General


CRITERIA 


  	 Code of Federal Regulations, Title 48, Chapter 29 Part 2901 - Department of
     Labor Acquisition Regulation System

  	 COTR Letter of Appointment

  	 DLMS, Chapter 6, Section 926 Disbursements

  	 FAR

  	 GAO/AIMD-00-21.3.1, Standards for Internal Control in the Federal Government

  	 GPRA of 1993

  	 MOU for TAP – September 19, 2006

  	 OMB Circular A-123, Management’s Responsibility for Internal Control

  	 TAP Operations Manual

  	 10 USC, Chapter 58, Section 1144




                                                 Veterans Transition Assistance Program
                                                           Report No. 06-10-002-02-001
                                        19
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                        Veterans Transition Assistance Program
                                  Report No. 06-10-002-02-001
               20
                               U. S. Department of Labor – Office of Inspector General


                                                                        Appendix C
Acronyms and Abbreviations

10 USC                Title 10 United States Code

CO                    Contracting Officer

COTR                  Contracting Officer's Technical Representative

DHS                   Department of Homeland Security

DLMS                  Department of Labor Manual Series

DOD                   Department of Defense

DOL                   Department of Labor

DVOP                  Disabled Veterans’ Outreach Program Specialist

FAR                   Federal Acquisition Regulation

FY                    Fiscal Year

GAO                   Government Accountability Office

GPRA                  Government Performance and Results Act

JVSG                  Jobs for Veterans State Grants

LVER                  Local Veterans’ Employment Representative

MOU                   Memorandum of Understanding

OMB                   Office of Management and Budget

TAP                   Transition Assistance Program

VA                    Department of Veterans’ Affairs

VETS                  Veterans’ Employment and Training Service




                                              Veterans Transition Assistance Program
                                                        Report No. 06-10-002-02-001
                                     21
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                        Veterans Transition Assistance Program
                                  Report No. 06-10-002-02-001
               22
                                U. S. Department of Labor – Office of Inspector General


                                                                         Appendix D
VETS Response to Draft Report




                                               Veterans Transition Assistance Program
                                                         Report No. 06-10-002-02-001
                                      23
U. S. Department of Labor – Office of Inspector General




               Veterans Transition Assistance Program
                         Report No. 06-10-002-02-001
      24
                                     U. S. Department of Labor – Office of Inspector General


                                                                             Appendix E
Acknowledgements

Key contributors to the report were Michael Yarbrough, Kathy Vochatzer, Sarah Pentecost,
and Aaron Talbert.




                                                    Veterans Transition Assistance Program
                                                              Report No. 06-10-002-02-001
                                           25
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

   Online:	      http://www.oig.dol.gov/hotlineform.htm
   Email:	       hotline@oig.dol.gov

   Telephone:	   1-800-347-3756
                 202-693-6999

   Fax:          202-693-7020

   Address:      Office of Inspector General
                 U.S. Department of Labor
                 200 Constitution Avenue, N.W.
                 Room S-5506
                 Washington, D.C. 20210
